       U.S. Department of the Interior
       Office of Inspector General

                                    Audit Report
                              Indirect Cost Fund,
                  Government of the Virgin Islands




Report No. V-IN-VIS-0110-2003            June 2005
This page intentionally left blank
CONTENTS
                   Background ................................................................................... 1
INTRODUCTION       Objective and Scope ..................................................................... 2
                   Prior Audit Coverage .................................................................... 3


RESULTS OF AUDIT
                   Overview....................................................................................... 4
                   Under-Recovery of Indirect Costs ................................................ 4
                   Accounting for and Use of Indirect Cost Reimbursements .......... 8
                   Conclusion .................................................................................... 12


                   To the Governor of the Virgin Islands.......................................... 15
RECOMMENDATIONS
                   To the Legislature of the Virgin Islands ....................................... 15
                   Auditee Response.......................................................................... 16


                   1.   Monetary Impact..................................................................... 17
APPENDICES         2.   Federal Grant Awards and Indirect Cost Reimbursements .... 18
                   3.   Indirect Cost Rates.................................................................. 19
                   4.   Response to Draft Report........................................................ 20
                   5.   Status of Recommendations ................................................... 26




                                              i
This page intentionally left blank




              ii
INTRODUCTION
                         Eight program agencies of the Government of the Virgin Islands
BACKGROUND               (GVI) received Federal grants in the amount of $87.9 million in
                         2002 to administer 112 programs. Ten program agencies received
                         $93 million in 2003 for 118 programs (see Appendix 2). In most
                         instances, the terms of Federal grants allow the recipients to
                         recover the necessary, reasonable, and allowable direct and indirect
                         costs of performing and administering the grants.1

What Are Indirect        Costs incurred by non-Federal organizations in running Federal
Costs?                   grant programs are comprised of indirect costs and direct costs.
                         Indirect costs are costs that cannot be readily or cost-effectively
                         attributed to an individual project. An example of an indirect cost
                         is the cost of data processing for an organization that administers
                         multiple grant programs. Most governments incur indirect costs on
                         two levels – at a centralized level, such as the cost of a Department
                         of Finance that provides accounting services to operating agencies,
                         and at the operating agency level, such as the agency’s cost of
                         maintaining a building that houses multiple grant programs. A
                         direct cost is one that is easily identified with a specific project,
                         such as the cost of supplies used in a particular grant. 2

Why Are Indirect Costs       Because indirect costs inevitably benefit – or burden – all
Important?                   grant-funded programs, they should never be ignored.
                             Pretending they don’t matter can be very dangerous to an
                             organization’s fiscal health. Calculating the full cost of a
                             program is a prerequisite to determining its relative
                             importance within the organization as a whole, to preparing
                             accurate budget forecasts and financial statements, to
                             setting fees for program services, and – perhaps most

                         1
                           Recovery of indirect costs may be limited or prohibited by Federal law,
                         regulation, or the grant agreement.
                         2
                           U.S. Office of Management and Budget Circular A-87, Cost Principles for
                         State, Local, and Indian Tribal Governments, establishes the standards that
                         governments must follow to determine allowable grant direct and indirect costs.
                         Regarding indirect costs, the Circular establishes mechanisms for governments
                         to recover indirect costs incurred at their central service and operating agency
                         levels. Governments must submit central service cost allocation plans to the
                         U.S. Department of Health and Human Services for approval. Once approved,
                         governments may allocate the central service costs to their operating agencies
                         for inclusion in the operating agencies’ indirect cost proposals. Operating
                         agencies submit their indirect cost proposals for approval to the Federal
                         department that has provided the most Federal assistance to the government
                         during a specified period. Once approved, the operating agencies may use the
                         indirect cost rates to calculate and bill for indirect costs on all their Federal
                         grants and contracts.


                                               1
                       importantly for grant administrators – to requesting
                       reimbursement from grant makers.3

                To help ensure that reimbursements for indirect costs are used to
                benefit Federal grant programs, the Legislature of the Virgin
                Islands established an Indirect Cost Fund (Fund) in 1981 for the
                deposit of allowable indirect cost reimbursements from Federal
                grant programs.4 The Legislature may appropriate monies in the
                Fund for the V.I. Office of Management and Budget, to support
                Federal program activities of the GVI, and for Federal grant
                matching purposes when other matching funds are not available.

                Program agencies contributed indirect costs of $1.7 million to the
                Fund in fiscal year 2002 and $2.5 million in fiscal year 2003. As
                of September 30, 2003, the Department of Finance reported an
                Indirect Cost Fund balance of $6.5 million. The Virgin Islands
                Legislature made lump-sum appropriations from the Fund totaling
                $3.2 million in 2002 and $3.8 million in 2003 for salaries,
                operating expenses, and other purposes of the Office of
                Management and Budget, the Division of Personnel, the
                Department of Finance, and the Department of Property and
                Procurement (central service agencies).

                In December 2001, representatives of most Federal grantor
                agencies met with GVI officials to begin developing a
                comprehensive 3-year Compliance Agreement to assist the Virgin
                Islands Department of Education and other Virgin Islands agencies
                to improve their administration of Federally-funded programs.
                The Compliance Agreement between the Government of the
                Virgin Islands and the U.S. Department of Education was finalized
                in September 2002. Sub-Issue 2.2 of the Compliance Agreement
                specified, among other things, that the GVI eliminate all the
                underlying problems having to do with indirect costs by 2004, “so
                that audits and other monitoring procedures will have minimal
                findings related to indirect cost rates in FY [fiscal year] 2003, and
                no findings related to indirect cost rates in FY 2004 and 2005.”


                The objective of the audit was to determine whether the GVI
OBJECTIVE AND
                accurately accounted for and properly used indirect cost funds in
SCOPE
                accordance with applicable Federal and local laws and regulations.
                The scope of the audit included indirect costs paid into and
                disbursed from the Indirect Cost Fund in fiscal years 2002 and
                2003.

                3
                    Understanding Indirect Costs by Henry Flood and Richard W. Phelps (2002).
                4
                    33 VIC §3025.

                                       2
              To accomplish our audit objective, we interviewed officials and
              reviewed indirect cost agreements, grant awards, payroll records,
              Statements of Remittance,5 appropriations, and expenditures of the
              Virgin Islands Departments of Agriculture, Education, Finance,
              Health, Human Services, Justice, Labor, Planning and Natural
              Resources, Police, Property and Procurement; Offices of
              Management and Budget, the Adjutant General, the Governor; and
              Division of Personnel.

              Our audit was conducted in accordance with the “Government
              Auditing Standards,” issued by the Comptroller General of the
              United States. Accordingly, we included such tests of records and
              other auditing procedures that were considered necessary under the
              circumstances. The “Standards” require that we obtain sufficient,
              competent, and relevant evidence to afford a reasonable basis for
              our findings and conclusions.

              As part of our audit, we evaluated the internal controls related to
              financial accountability and administration of the Indirect Cost
              Fund to the extent we considered necessary to accomplish the audit
              objective. Internal control weaknesses identified in these areas are
              discussed in the Results of Audit section of this report. The
              recommendations, if implemented, should improve the internal
              controls in these areas.


              Neither the Office of the Inspector General, U.S. Department of
PRIOR AUDIT   the Interior, nor the Office of the Virgin Islands Inspector General
COVERAGE
              has performed any prior audits of the Indirect Cost Fund.




              5
                A Statement of Remittance is a form used as the source document for
              recording the receipt and deposit of revenues into the appropriate account in the
              GVI’s Financial Management System.

                                    3
RESULTS OF AUDIT
                         The Government of the Virgin Islands (GVI) did not effectively
OVERVIEW                 manage the recovery of indirect costs on its Federal grant
                         programs. We attributed this condition to the lack of a sound
                         overall approach for administering indirect costs. As a result, the
                         GVI under-recovered indirect costs and did not make sure that the
                         indirect costs which it did recover were properly accounted for or
                         used only for the management and improvement of Federal grant
                         programs.

                         The GVI significantly under recovered indirect costs. For
UNDER-RECOVERY OF        example, for fiscal year 2003, recoverable indirect costs could
INDIRECT COSTS
                         have totaled as much as $5.9 million,6 whereas actual deposits into
                         the Indirect Cost Fund were only $2.5 million. Indirect costs were
                         under-recovered because some GVI program agencies did not
                         request indirect costs from Federal agencies, billed for indirect
                         costs using incorrect rates, and/or applied the indirect cost rates
                         incorrectly. (The indirect cost rates for fiscal years 2003 through
                         2005 are presented in Appendix 3.)

Agencies Did Not         The Virgin Islands Code7 states that every application for Federal
Request Indirect Costs   grants-in-aid or other form of Federal funding shall request
                         reimbursement to the Territorial Government of all indirect costs
                         when reimbursement for such costs is permitted by Federal law.
                         We identified five program agencies that did not request indirect
                         cost reimbursements from Federal grantor agencies in fiscal years
                         2002 and 2003. Specifically:

                         ¾ The Department of Health received Federal grants of $7.2
                           million to administer the medical assistance and child health
                           insurance programs for fiscal year 2002. The Program Director
                           informed us that the agency did not request indirect cost
                           reimbursements for fiscal year 2002 because the indirect cost
                           rate was too high and would cut deeply into the programs’


                         6
                           It was not practical for us to precisely calculate the indirect costs that the GVI
                         should have recovered because doing so would have required a detailed analysis
                         of (1) each grant agreement and associated laws and regulations to identify any
                         limitations on indirect costs and (2) the direct costs of each grant to determine
                         how to apply the approved indirect costs rates. The estimate of $5.9 million
                         was developed by the public accounting firm contracted by the GVI to prepare
                         the indirect cost proposals and may not have taken into consideration limitations
                         that some Federal grant programs have on the amount of indirect cost
                         recoveries.
                         7
                             33 VIC § 3023(b)

                                                4
   administrative budget. We estimated that the Department of
   Health did not recover indirect cost reimbursements totaling at
   least $76,500.

¾ The Police Department received Federal grants of $4.8 million
  to administer seven law enforcement programs for fiscal year
  2002. The Director of Financial Management Services
  informed us that prior to fiscal year 2003, the Department had
  never requested reimbursement of indirect costs. We estimated
  that indirect cost reimbursements totaling at least $20,200 were
  not recovered. The Police Department also received Federal
  grants of $7.9 million to administer four programs in
  community policing, information technology, crime control,
  and safe streets for fiscal years 2002 to 2005. The Director of
  Fiscal Property told us that the Police Department did not
  budget for indirect costs for the four programs. We could not
  determine the applicable amount of unreimbursed indirect costs
  for the four programs because the necessary documents were
  not readily available.

¾ The Department of Human Services received Federal grants of
  $20 million to administer its pre-school program and $450,000
  for a national and community service program for fiscal years
  2002 and 2003. The Deputy Commissioner for Fiscal
  Operations told us that requests for reimbursement of indirect
  costs were not made for either program because the indirect
  cost rates were too high. We estimated that indirect cost
  reimbursements totaling $312,300 were not sought.

¾ The Department of Agriculture received two Federal grants
  totaling $165,000 to administer the State and Private Forestry
  program for fiscal year 2003. The Commissioner said he
  considered indirect costs to be a tax, and that the employee
  trained to handle indirect costs was no longer with the
  Department. Therefore, the Department of Agriculture did not
  request reimbursement of indirect costs. We were unable to
  determine the applicable amount of unreimbursed indirect costs
  because necessary records were not available.

¾ The Virgin Islands National Guard unit of the Office of
  Adjutant General did not request reimbursement of indirect
  costs in fiscal years 2002 and 2003. An agency official
  informed us that its six programs were exempt from indirect
  costs because of an agreement with the V.I. Office of
  Management and Budget. However, officials of the Office of
  Management and Budget told us that this exemption was only


                  5
                             for the 3-year cycle of fiscal years 1997 to 1999 because of
                             Hurricane Marilyn in September 1995. We requested the grant
                             award documents for the programs, but they were never
                             provided. Therefore, we could not determine the applicable
                             amount of unreimbursed indirect costs.

Agencies Used Incorrect   Four program agencies did not use the correct indirect cost rates.
Indirect Cost Rates       Specifically:

                          ¾ The Virgin Islands Territorial Emergency Management Agency
                            unit of the Office of Adjutant General, in a September 2002
                            letter to the V.I. Office of Management and Budget Director,
                            said that a rate higher than 15 percent would hamper its ability
                            to receive future Federal grants and that an increase in indirect
                            costs would significantly decrease its available funds for
                            program administration and would result in a reduction of staff.
                            As a result, the Agency continued to use its fiscal year 2002
                            indirect cost rate of 15 percent instead of the approved rate of
                            25.29 percent for fiscal year 2003. This resulted in an
                            under-recovery of about $37,400 in indirect costs.

                          ¾ The Director of Business and Administrative Services at the
                            Department of Planning and Natural Resources told us that
                            there was no signed indirect cost agreement for fiscal year
                            2003, and that she was notified of the new rates late. The
                            Director also stated that the rates were too high and would
                            hamper the administration of the programs. Therefore, the
                            agency used its fiscal year 2002 indirect cost rate of
                            18.13 percent for its programs in fiscal year 2003 instead of its
                            new rates of 39.52 percent for Fish and Wildlife programs and
                            21.11 percent for Environmental Protection programs. This
                            resulted in an under-recovery of about $236,269 in indirect
                            costs. Also, the Department used a 7 percent rate for its
                            Libraries, Archives and Museums program instead of the
                            approved rates of 18.13 percent for fiscal year 2002 and
                            24.87 percents for fiscal year 2003. If the correct indirect cost
                            rates had been applied in fiscal years 2002 and 2003, indirect
                            cost reimbursements would have been $13,083 greater.

                          ¾ The Commissioner of the Department of Agriculture stated that
                            the proposed 52.7 percent indirect cost rate was unreasonably
                            high and would be detrimental to its grant programs. In that
                            regard, a September 2003 letter from the grantor agency stated,
                            “This [indirect cost] charge could result in a loss of U.S. Forest
                            Service federal grant funds due to the fact that after the
                            deduction there would be less than half of the funds available


                                            6
                          for projects and program administration. It [indirect cost] will
                          affect your ability to complete projects and without positive
                          performance outcomes your competition for future funds will
                          be extremely limited.” A V.I. Office of Management and
                          Budget official told us that a follow-up meeting was held with
                          the Commissioner in November 2003, and it was agreed that
                          the approved indirect cost rate should be used for fiscal years
                          2004 and 2005. However, Agriculture did not request any
                          reimbursement of indirect costs.

                      ¾ The Department of Human Services used its fiscal year 2002
                        indirect cost rate of 26.31 percent instead of the correct rate of
                        27.65 percent for its food and nutrition service program in
                        fiscal year 2003. If the correct indirect cost rate was applied,
                        indirect cost reimbursements would have been $778 greater.

Agencies Applied      To comply with the indirect cost section of the Compliance
Indirect Cost Rates   Agreement between the GVI and the U.S. Department of
Incorrectly           Education, the V.I. Office of Management and Budget contracted
                      with an accounting firm to prepare a new comprehensive indirect
                      cost allocation plan and related indirect cost rates for fiscal years
                      2003 through 2005. The accounting firm computed rates for
                      program agencies using a base of net total direct costs8 instead of
                      direct salaries and wages, as had been the past practice. We found,
                      however, that program agencies continued the past practice of
                      applying indirect cost rates to direct salaries and wages for fiscal
                      year 2003. As direct salaries and wages are generally lower than
                      net total direct costs, application of the rates to salaries and wages
                      resulted in decreased indirect cost recoveries.

                      According to V.I. Office of Management and Budget officials, this
                      error occurred because (1) fiscal year 2003 was a period of
                      transition, (2) it would have been cumbersome to apply rates
                      against net total direct costs, and (3) the Financial Management
                      System was not set up to accommodate rates based on net total
                      direct costs. Further, our audit disclosed that most Indirect Cost
                      Negotiation Agreements did not become effective until late in
                      fiscal year 2003 or early in fiscal year 2004, which was too late to
                      begin applying rates to net total direct costs for fiscal year 2003.
                      The V.I. Office of Management and Budget advised that it
                      anticipated that indirect cost rates would be applied to net total
                      direct costs for fiscal year 2004.


                      8
                        Net total direct costs are total direct costs less cost categories that are
                      considered to be unallowable under Circular A-87 and the specific laws and
                      regulations related to certain grant programs.

                                            7
                           The GVI did not properly account for and use indirect cost
ACCOUNTING FOR AND         reimbursements. Specifically, the amount of indirect costs
USE OF INDIRECT COST
                           deposited into the Indirect Cost Fund was not accurately tracked,
REIMBURSEMENTS
                           Fund revenues were not used to support grant administration in the
                           program agencies, and Fund revenues were used for unauthorized
                           purposes or expenditures were not adequately supported.

Indirect Cost              At the time of our review, the Financial Management System
Reimbursements and         automatically computed indirect costs based on the rates
Revenues into the          programmed into the System for the ten program agencies. The
Indirect Cost Fund Were    programmed rates were generally based on the approved indirect
Not Accurately Tracked     cost negotiation agreements. However, as already noted, these
                           rates were not always used by program agencies, and some
                           program agencies simply did not request indirect cost
                           reimbursements. However, the Department of Finance used
                           information in the Financial Management System to prepare
                           quarterly reports on the status of the Indirect Cost Fund for the
                           Governor, the Director of the V.I. Office of Management and
                           Budget, and the Legislature. Consequently, amounts reflected in
                           Indirect Cost Fund quarterly reports were not accurate. For
                           example, the Department of Finance reported indirect cost
                           revenues of $4.8 million from Federal grantor agencies for the
                           3-month period ended September 30, 2003, but our audit disclosed
                           that actual deposits into the Fund totaled only $2.5 million.
                           Nevertheless, these reports were used by the Legislature to make
                           decisions related to appropriations from the Fund.

$3.6 Million in Indirect   The Virgin Islands Code9 states that monies deposited into the
Cost Reimbursements        Indirect Cost Fund may be appropriated to support Federal
Was Not Equitably          program activities established within the various departments or
Allocated                  agencies of the GVI receiving Federal grant assistance. We found
                           that the Legislature properly appropriated $3.2 million in fiscal
                           year 2002 and $3.8 million in fiscal year 2003 for salaries,
                           operating expenses, and other purposes of four central service
                           agencies. However, indirect cost reimbursements were not
                           specifically appropriated to cover the internal grant administration
                           costs of most program agencies – a deficiency that adversely
                           impacted the administration of Federal programs by the program
                           agencies and also resulted in the General Fund having to cover
                           some of the administrative costs of the Federal programs.

                           We found that only the Departments of Education and Justice
                           received funds from the Indirect Cost Fund to cover a portion of
                           their grant administrative costs. A Department of Justice official
                           told us it had been a struggle to get back its indirect cost monies.
                           9
                               33 VIC § 3025(b)(5)

                                                     8
Also, officials of three program agencies told us that they could
have used indirect cost reimbursements to pay shared and overhead
costs of running their grant programs; and officials of four other
program agencies said that since they have never been reimbursed
for indirect costs, they have managed to run the programs without
those additional monies.

In accordance with the Compliance Agreement between the GVI
and the U.S. Department of Education, steps to determine indirect
costs and distribute indirect cost reimbursements between the V.I.
Department of Education and the central service agencies were to
be fully implemented by October 1, 2002 (the beginning of fiscal
year 2003). The V.I. Office of Management and Budget also used
the procedures established for the Department of Education to
compute central service agency components of indirect costs and
the indirect cost rates for program agencies. However, it had not
begun to routinely allocate indirect cost reimbursements between
the program agencies and central service agencies using the
established rates.

In September 2003, the Department of Finance developed a new
Indirect Cost Fund account number and new expenditure and
revenue cost center codes to allocate indirect costs between
program agencies and central service agencies. Under this new
process, program agencies would be required to prepare two
Miscellaneous Disbursement Vouchers for each year (beginning
with fiscal year 2004) using the new cost center codes to record the
allocation of indirect cost reimbursements between the program
agencies and the central service agencies.

However, program agency officials reported that, as of March
2004, they had not started using this new process and that their
inquiries on the Financial Management System showed no activity
for the new cost center codes. Further, we identified three program
agencies which were not aware of the new process for allocation of
indirect cost reimbursements. In April 2004, the V.I. Office of
Management and Budget held meetings with program agency and
Department of Finance officials to finalize plans for implementing
the new process.

Subsequent to our February 10, 2005 exit conference, the V.I.
Office of Management and Budget provided us with
documentation showing that a training session, attended by more
than 50 program agency and central service agency
representatives, was held on April 20, 2004 to explain the new
procedures that had been developed for processing indirect cost


                  9
                          reimbursements. Management and Budget also provided us with a
                          copy of the new procedures, which were formally issued on June
                          10, 2004. The procedures included detailed examples for
                          calculating the allocation of indirect cost reimbursements between
                          program agency and central service agency components and
                          examples of completed forms needed to properly record the receipt
                          and allocation of the indirect cost reimbursements.

Appropriations from the   The Virgin Islands Code10 stresses that the Indirect Cost Fund be
Indirect Cost Fund Were   used for the purpose of improving Federal grants administration
Made for Non-Grant        and management and increasing the Virgin Islands’ participation in
Purposes                  Federal grant-in-aid programs. However, we found that the
                          Legislature sometimes appropriated monies from the Fund for
                          purposes that were not related to these areas.

                          In October 1998 (Act No. 6254), the Legislature appropriated
                          $318,000 from the Indirect Cost Fund for purposes such as (1)
                          Department of Public Works operation and maintenance
                          coordinator, St. John landfill closure re-analysis study, and
                          wastewater collection recording system; (2) Office of Management
                          and Budget economic program; (3) Roy L. Schneider Hospital
                          institutional consultant; (4) Department of Finance needs
                          assessment for Treasury Division; and (5) Department of
                          Education inventory and survey of public school facilities.

                          At our February 10, 2005 exit conference, V.I. Office of
                          Management and Budget officials stated that some of the
                          appropriated amounts listed above were related to the
                          administration of Federal grants. However, as of May 2, 2005,
                          they had not provided us with documentation to support that
                          assertion.

                          In January 2002, the Office of Inspector General, U.S. Department
                          of Interior, wrote to the Governor and the Legislature informing
                          them of the consensus reached by Federal grantor agency
                          representatives at a joint Federal/Virgin Islands conference held in
                          the Virgin Islands during December 2001. During this conference,
                          extensive discussions were held regarding the Government-wide
                          procedures for computation, distribution, and use of indirect cost
                          reimbursements from Federal grant programs. The letter stated, in
                          part:
                          10
                            33 VIC § 3025(b)(4) states, “The Indirect Cost Fund shall be utilized for the
                          purpose of improving Federal grants administration and management in the Territory
                          and increasing Virgin Islands’ participation in Federal grant-in-aid programs,
                          including but not limited to, grant budget and accounting assistance, grant proposal
                          development, grant management training, special studies and acquisition, accounting
                          or reporting of Federal grant programs, and for other purposes.”

                                                10
     Based on the definition of indirect costs included in
     Attachment E of the Office of Management and Budget
     Circular A-87, the indirect cost reimbursements
     deposited into the Indirect Cost Fund should be used
     solely to support the costs associated with administering
     the respective grant programs. Specifically, we do not
     believe that appropriations should be made from the
     Fund for non-grant expenditures, such as the $318,000
     appropriation made by Act No. 6254. We believe that
     the Fund should be used to reimburse the central service
     agencies for the costs associated with such
     Government-wide grant administrative functions as
     grant oversight, single audits, and financial accounting
     and to reimburse the individual grant recipient agencies
     for internal costs associated with administering the
     grant programs.

Despite this policy statement, in December 2002 (Act No. 6571),
the Legislature appropriated $3.6 million from the Indirect Cost
Fund to finance negotiated union contracts for firefighters. The
Governor, however, vetoed this appropriation, stating that he was
not in favor of “raiding the Indirect Cost Fund to support
non-federal salary increases for which this Government lacks
resources because it jeopardizes all federal programs.” The
Governor urged the Legislature to seek an alternative source of
funding.

In a related test, we reviewed fiscal year 2002 and 2003
appropriations of $7.9 million and expenditures of $4.9 million for
four central service agencies to determine if indirect cost monies
were used in accordance with applicable local laws and
regulations. We concluded that expenditures were generally for
authorized purposes, except for $2,480 that was not supported and
$8,400 that was outside the scope of grant management, as
follows:

¾ The V.I. Office of Management and Budget could not provide
  supporting documents for $2,480 spent for cleaning services
  and utilities.

¾ The Division of Personnel spent $1,000 to publish the names
  of employees of the year for 2002, $6,400 to host public
  service ceremonies on St. Thomas and St. Croix, $600 for
  Christmas party items, and $400 for meals during
  pre-arbitration and financial meetings.


                  11
             The language included in the Virgin Islands Code pertaining to the
             acceptable uses of the Indirect Cost Fund – specifically the catchall
             phrase “and for other purposes” – allows the Indirect Cost Fund to
             be used for purposes unrelated to Federal grant programs.
             Reimbursements to the Indirect Cost Fund are needed to (1) assist
             the central service agencies that provide vital services such as grant
             oversight, single audits, and financial accounting and (2)
             reimburse the program agencies for internal costs associated with
             administering grant programs. We believe the indirect cost
             reimbursements received from Federal grant programs and
             deposited into the Indirect Cost Fund should be used only for these
             purposes.


             Agencies of the GVI which operate Federal grant programs should,
CONCLUSION   to the extent permitted by Federal law, regulation, and agreements,
             recover and retain their appropriate share of indirect costs to help
             effectively operate grant-funded programs. This is not happening
             in the Virgin Islands. Based on our audit, we concluded that
             agencies of the GVI do not fully recognize the complexities of
             estimating, budgeting, and recovering indirect costs. Further, the
             requirement to deposit indirect cost reimbursements into the
             Indirect Cost Fund serves as a disincentive, in our opinion, for
             program agencies to optimize indirect cost reimbursements
             because the Legislature has not given the appropriate share of the
             deposits back to the program agencies.

             We believe that the GVI lacks a comprehensive strategy to
             administer indirect costs. Such a strategy should include:

             ¾ An analysis of all Federal grants and contracts regularly
               awarded to the GVI to identify any limitations on indirect cost
               recoveries, to identify instances where application of the full
               indirect cost rate will be detrimental to the delivery of direct
               program services, and to identify instances where application
               of the full indirect cost rates will hinder the GVI’s ability to
               compete for grant awards;

             ¾ An estimate, based on the above analysis, of the amount of
               recoverable indirect costs and the development of agency
               budgets and grant proposals that include accurate forecasts of
               the cost of grant administration to be financed with indirect and
               direct costs to be recovered under the grants and with GVI
               funds;



                               12
¾ The provision of ongoing refresher training to agency
  management and key staff on the computation, recovery, and
  use of indirect costs; and

¾ The revision of the Virgin Islands Code (33 VIC §3025) to
  provide that the portion of program agency payments into the
  Indirect Cost Fund that are applicable to their internal grant
  administrative costs are transferred to the program agencies to
  cover such costs.




                 13
This page intentionally left blank




                  14
RECOMMENDATIONS
                     We recommend that the Governor of the Virgin Islands:
TO THE GOVERNOR OF
THE VIRGIN ISLANDS       1. Develop and implement a comprehensive strategy to
                     administer indirect costs, as outlined in the Conclusion section of
                     this report.

                     In the interim, we also recommend that the Governor of the Virgin
                     Islands ensure that:

                         2. The Office of Management and Budget continues to
                     monitor the program agencies to ensure that they budget for
                     indirect cost reimbursements, complete the negotiation process for
                     indirect cost agreements, and use only current, approved indirect
                     cost rates.

                         3. The Office of Management and Budget takes the necessary
                     steps to comply with the requirement that indirect cost rates are
                     applied to net total direct costs as stated in the Summary of
                     Proposed Indirect Cost Rates and Indirect Cost Negotiation
                     Agreements.

                         4. The Department of Finance takes the steps necessary to
                     require that future indirect cost reimbursements are recorded to the
                     correct revenue codes on Statements of Remittance for accurate
                     reporting on Indirect Cost Fund quarterly reports to the Governor,
                     the Office of Management and Budget, and the Legislature.

                        5. The Office of Management and Budget locates and
                     provides to us the supporting documents for $2,480 in expenditures
                     from the Indirect Cost Fund.

                         6. Program agencies and central service agencies comply with
                     the Virgin Islands Code provisions for the appropriate uses of the
                     Indirect Cost Fund for the purpose of enhancing the administration
                     of grant programs.

                     We further recommend that the Legislature of the Virgin Islands:
TO THE LEGISLATURE
OF THE VIRGIN
                         7. Appropriate, in accordance with the Virgin Islands Code,
ISLANDS
                     monies from the Indirect Cost Fund only for purposes that improve
                     the administration and management of Federal grant programs.




                                       15
                      8. Consider removing the phrase “and for other purposes”
                   from the policy statement for use of the Indirect Cost Fund that is
                   contained in the Virgin Islands Code.

                   The May 9, 2005, response (Appendix 4) from the Virgin Islands
AUDITEE RESPONSE   Office of Management and Budget concurred with the findings and
                   recommendations and provided detailed information on actions
                   which have been taken to improve and standardize the indirect cost
                   allocation process within the Government of the Virgin Islands.
                   Based on the response, we classified Recommendations 1, 2, 3, 4,
                   and 6 as resolved and implemented. Because the response did not
                   address Recommendation 5, we classified that recommendation as
                   unresolved. Additionally, because we did not receive a response
                   from the Legislature of the Virgin Islands, we also classified
                   Recommendations 7 and 8 as unresolved. Appendix 5 describes
                   the documentation that the Government of the Virgin Islands
                   should provide in order to close out Recommendations 5, 7, and 8.




                                     16
APPENDIX 1 - MONETARY IMPACT
FINDING AREA                                    Potential
                                               Unrealized
                                               Revenues
Under-Recovery of
  Indirect Costs                                $696,530 *




 __________
 * The amount represents Federal funds.




                                          17
APPENDIX 2 – FEDERAL GRANT AWARDS AND
             INDIRECT COST REIMBURSEMENTS
                                                                                FY 2002
                                                      FY 2002      Number of    Indirect
                 Program Agency                       Federal        Grant        Costs
                                                    Grant Awards   Programs    Reimbursed
Office of Adjutant General                             $561,176        1         $46,999
Department of Education                               15,942,877      26         156,071
Department of Health                                 20,349,538       20         337,505
Department of Human Services                         17,371,919        8         381,761
Department of Justice                                 3,263,306        1               0
Department of Labor                                   7,288,023       13         289,279
Dept. of Planning and Natural Resources              15,332,065       34         445,629
Police Department                                     7,784,672        9               0
Totals                                              $87,893,576      112       $1,657,244

                                                                                FY 2003
                                                      FY 2003      Number of    Indirect
                 Program Agency                       Federal        Grant        Costs
                                                    Grant Awards   Programs    Reimbursed
Office of Adjutant General                             $632,810        1         $54,492
Department of Agriculture                               165,000        1               0
Department of Education                              19,830,243       29         450,131
Office of the Governor                                   42,000        1           5,140
Department of Health                                 20,780,001       23         745,673
Department of Human Services                         18,627,745        8         363,774
Department of Justice                                 3,110,821        1         124,121
Department of Labor                                   6,496,237       14         235,408
Department of Planning and Natural Resources         14,956,432       34         525,321
Police Department                                     8,398,151        6           6,688
Totals                                              $93,039,440      118       $2,510,748




                                               18
APPENDIX 3 – INDIRECT COST RATES
              Program Agency and Rate Type                     Program     Central Service     Overall
      (Rates Applicable to Fiscal Years 2003 to 2005)        Agency Rate    Agency Rate      Combined Rate
Department of Education:
Restricted Rate                                                 4.82%           2.43%            7.25%
Unrestricted Rate                                              12.33%           2.65%           14.98%

Department of Health:
Medical Care                                                    5.15%           0.92%            6.07%
Emergency Services                                             12.93%           2.31%           15.24%
Health, Planning, Research                                     46.26%           8.27%           54.53%
Preventive Health                                              19.99%           3.58%           23.57%

Department of Human Services:
Pre-School Services                                            10.68%           2.99%           13.67%
Food Stamps                                                    21.03%           5.88%           26.91%
All Other Programs                                             21.60%           6.05%           27.65%

Department of Police:
Law Enforcement/Victim Witness                                  1.77%           0.57%            2.34%
Highway Safety/Vehicle Registration                            20.60%           6.67%           27.27%
All Other Programs                                             12.09%           3.91%           16.00%

Department of Planning and Natural Resources:
Fish and Wildlife                                              27.74%          11.78%           39.52%
Environmental Protection                                       14.82%           6.29%           21.11%
All Other Programs                                             17.46%           7.41%           24.87%

Department of Justice:
Paternity and Child Support                                     6.37%           4.37%           10.74%
All Other Programs                                              9.84%           6.75%           16.59%

Department of Agriculture:
All Programs                                                   33.85%          18.85%           52.70%

Department of Labor:
Central Office                                                  8.34%          12.34%           20.68%
Division of Training Programs                                   4.04%           5.98%           10.02%
V.I. Employment Security Agency                                 3.51%           5.19%            8.70%

Office of Adjutant General:
V.I. Emergency Management Agency                               10.73%          14.56%           25.29%
All Other Program                                              35.67%          48.38%           84.05%




                                                        19
APPENDIX 4 - RESPONSE TO DRAFT REPORT




                     20
     Appendix 4
     Page 2 of 6




21
     Appendix 4
     Page 3 of 6




22
     Appendix 4
     Page 4 of 6




23
     Appendix 4
     Page 5 of 6




24
     Appendix 4
     Page 6 of 6




25
APPENDIX 5 - STATUS OF RECOMMENDATIONS

Finding/Recommendation
       Reference              Status                       Action Required

    1, 2, 3, 4, and 6    Resolved and        No further action required.
                         Implemented.

      5, 7, and 8        Unresolved.         Provide a response that expresses
                                             concurrence or nonconcurrence with each
                                             recommendation. If concurrence is
                                             indicated, provide a plan of action that
                                             includes target dates and the titles of the
                                             officials responsible for implementing
                                             corrective action. If nonconcurrence is
                                             indicated, provide the reason for
                                             nonconcurrence and a plan of action that
                                             includes alternative corrective action and
                                             target dates for addressing the underlying
                                             deficiencies.




                                        26
